           Report No. D-2010-021                    November 23, 2009





Using System Threat Assessments in the Acquisition 

           of Tactical Wheeled Vehicles





                                          Warning
“The enclosed document(s) is (are) the property of the Department of Defense, Office of
Inspector General. Release or disclosure of the contents is prohibited by DOD Directive
5106.1. Contents may be disclosed only to persons whose official duties require access
hereto. Contents cannot be released outside the Defense Department without the approval of
the Department of Defense, Office of Inspector General.”
Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACAT                  Acquisition Category
NGIC                  National Ground Intelligence Center
STA                   System Threat Assessment
TWV                   Tactical Wheeled Vehicle


                             FOR OFFICIAL USE ONLY 

                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-2884




                                                                            November 23, 2009




MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Using System Threat Assessments in the Acquisition of Tactical Wheeled
         Vehicles (Report No. D-2010-021)

We are providing this report for information and use. No written response to this report
was required, and none was received. Therefore, we are publishing this report in final
form.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9201.
                                                                                    ,
                                          ~6,
                                                 Richard B. Jolliffe
                                                 Assistant Inspector General
                                                 Acquisition and Contract Management




                                       Speeiftl ~ltll'HiHg

This I el'61 t e6uhtitts iHferltttlti8ft ~eBtpt it'6Bt tliselestlt'e tuttley the ¥i'sedaBl af
IHfflt'lHlltioll !.et, S Y.S.C. § SS:J~)(:J),




                                FOR OFFICI!.L YSE ONLY
Report No. D-2010-021 (Project No. D2008-D000AE-0287.000)                           November 23, 2009


               Results in Brief: Using System Threat
               Assessments in the Acquisition of Tactical
               Wheeled Vehicles

What We Did
We determined whether the Army and Marine                What We Recommend
Corps program offices obtained updated system            The report contains no recommendations, and
threat assessments for acquisitions of selected          no agency or organization is required to
tactical wheeled vehicles in support of                  comment.
operations in Southwest Asia. Specifically, we
determined whether the Army and Marine Corps             Client Comments and Our
program offices updated program
documentation for selected tactical wheeled
                                                         Response
vehicles, including contracts, test plans, and           We provided a draft report on September 30,
system capability documents, in response to              2009 to the Naval Inspector General and to the
threats identified in current system threat              Auditor General, Department of the Army. No
assessments.                                             written response to this report was required, and
                                                         none was received. Therefore, we are
What We Found                                            publishing this report in final form.
The Army and Marine Corps processes used to              Heavy Equipment Transporter System
identify threats to tactical wheeled vehicles and        (Example of a tactical wheeled vehicle)
communicate this information to program
managers and the test communities were
effective. As a result, program offices for seven
Army and Marine Corps tactical wheeled
vehicles that were deployed to Southwest Asia
reacted to updated system threat assessments by
incorporating armor into the vehicles’ design.
Specifically, the program offices obtained
updated threat assessments, modified their
contracts to incorporate armor requirements in
the vehicle design, and had the test community
determine the suitability and effectiveness of the       Source: Product Manager Heavy Tactical
design changes made in response to the                   Vehicles
changing threat. Further, requirements
organizations within the Army and Marine
Corps were in the process of updating tactical
wheeled vehicle capability documents to reflect
the updated threat information and required
updated capabilities. The Army and Marine
Corps internal controls were effective. We
identified no internal control weakness in
identifying and communicating the threat to
tactical wheeled vehicles.

                                                     i
THIS PAGE LEFT INTENTIONALLY BLANK

Table of Contents 


Introduction	                                                                  1


       Objective                                                              1

       Background                                                             1

       Review of Internal Controls                                            3

       Sources of Threat Assessment Information                               3


Finding. Identifying and Updating the Threats to Tactical Wheeled Vehicles    4


Appendices

       A. 	Scope and Methodology                                             10 

              Prior Coverage                                                 10     

       B. 	Description of the Selected Army and Marine Corps 

              Tactical Wheeled Vehicles                                      12 

       C. Guidance on Developing and Communicating Threat Information        15 

       D. Agency Roles and Responsibilities 	                                17 


Glossary 	                                                                   20





                           FOR OFFICIAL USE ONLY 

THIS PAGE LEFT INTENTIONALLY BLANK 

Introduction
Objective
The audit objective was to determine whether the Army and Marine Corps program
offices obtained updated system threat assessments (STAs) for acquisitions of selected
tactical wheeled vehicles (TWVs) in support of the operations in Southwest Asia.1
Specifically, we determined whether the Army and the Marine Corps updated program
documentation for selected TWVs, including contracts, test plans, and system capability
documents, in response to the threats identified in current STAs. See Appendix A for a
discussion of the scope and methodology and prior coverage related to the audit
objective.

Background
Intelligence agencies prepare and update assessments of enemy capabilities to neutralize
or degrade a specific U.S. system and describe the threat to be countered and the
projected threat environment.

Operational Threat Environment
In November 2008, the Army Training and Doctrine Command for Intelligence, G-2,
prepared an informal threat assessment for the Army’s TWVs.2 The threat assessment
states that, for the past 20 years, adversaries have adopted tactics and technologies to hide
from U.S. reconnaissance, surveillance, and target acquisition sensors. The enemies
choose to fight in complex terrain because it mitigates American technological
advantages in intelligence, surveillance, and reconnaissance. As a result, U.S. ground
forces operate in all terrain sets and in all weather conditions in increasingly complex
environments. In these environments, U.S. ground forces conducting patrol or
reconnaissance missions in TWVs could become prime targets. The threat assessment
predicts that the future enemy will continue to rely less on conventional force-on-force
battles to thwart U.S. actions and more on tactics that frustrate U.S. intentions without
confrontation.

The tailored STA3 prepared for the Marine Corps Medium Tactical Vehicle Replacement
and the Logistics Vehicle System Replacement in January 20044 states that in the next 20
years no single opponent will constitute a threat to the United States. Instead, regional
powers and alliances will pose the most viable threat. Advances in and proliferation of
technology will present an array of new, more sophisticated threats. Increasingly, other


1
  Previously referred to as the Global War on Terror.

2
  In August 2009, the Army completed, “System Threat Assessment Report for the Tactical Wheeled 

Vehicles,” a combined STA for the Army’s light, medium, and heavy TWVs. 

3
  The tailored STA is the Marine Corps equivalent to an STA; however, the threat content is more focused 

on the specific system.

4
  The Marine Corps Intelligence Activity modified the tailored STA in August 2009, but it is still dated 

January 2004. 



                                                    1

nations will be equipped with new or modernized sophisticated weapons, sensors, and
information operations capabilities obtained from suppliers worldwide. Moreover, the
Marine Corps can expect to encounter both nation-state-based, nontraditional combatants
and a variety of nonstate actors engaging in unconventional warfare. Each operational
environment will provide a unique set of challenges to deployed forces and TWVs. See
the glossary for definitions of technical terms used in this report.

Specific Threats to Tactical Wheeled Vehicles
The November 2008 threat assessment identified the most likely threats to TWVs as
mines, roadside improvised explosive devices, and small arms fire. However, the most
stressing threats continue to be explosively formed projectiles because of their armor
penetration capabilities and large underbody improvised explosive devices. Physical
damage can also be expected from traditional and irregular threats, ranging from
conventional ground forces using small arms and mines to terrorist and insurgent forces
using available weapons in both their intended and unintended capacities. The threat
assessment further indicated that adversaries can be expected to possess knowledge
regarding vulnerable areas when targeting TWVs.

The January 2004 tailored STA for the Marine Corps Medium Tactical Vehicle
Replacement and the Logistics Vehicle System Replacement states that there is no single
threat to operations of the TWVs. TWVs will face many threats, including landmines,
small arms fire, improvised explosive devices, rockets, precision guided bombs, and
munitions. Reconnaissance, surveillance, and target acquisition obstacles and barriers
also threaten the survivability of TWVs in future operations.

Selected Tactical Wheeled Vehicles
We judgmentally selected TWVs developed and acquired by the Army and the Marine
Corps5 to determine whether controls were in place to react with appropriate vehicle
design changes as changes in threats occurred for those vehicles.

In the Army, TWVs are managed under the TACOM Life Cycle Management Command.
From a list of all Army-managed TWVs, we identified those that were operating in
theater (Iraq or Afghanistan) and then selected vehicles from each TWV category: light,
medium, and heavy. Based on their wide use in theater, we selected the following five
Army TWVs for review:

      •   Armored Security Vehicle,
      •   High Mobility Multipurpose Wheeled Vehicle,
      •   Family of Medium Tactical Vehicles,
      •   Heavy Equipment Transporter System, and
      •   Heavy Expanded Mobility Tactical Truck.



5
    The Navy and the Air Force do not develop or produce TWVs.


                                                   2

In the Marine Corps, TWVs are managed under the Marine Corps Systems Command.
From the list provided by the Marine Corps, we selected all the light, medium, and heavy
TWVs for which the Marine Corps was the lead acquisition agency:

   •   Internally Transportable Vehicle,
   •   Medium Tactical Vehicle Replacement, and
   •   Logistics Vehicle System Replacement.

Each of the TWVs selected for review was in the production phase of the acquisition
process, with the exception of the Heavy Equipment Transporter System, which is in the
operations and support phase of the acquisition process. See Appendix B for a
description of the selected Army and Marine Corps TWVs.

Review of Internal Controls
We reviewed the internal controls in the Army and Marine Corps to identify and
communicate threat updates to TWVs to program offices, contracting officers, test
organizations, and milestone decision authorities. We determined that the Army and
Marine Corps processes used for identifying and communicating threat information on
TWVs to program managers, contracting officers, test organizations, and requirements
generators were effective.

Sources of Threat Assessment Information
The key organizations for preparing the Land Warfare Capstone Threat Assessment and
for collecting and relaying threat information to program offices and requirements
generators are the Army Intelligence and Security Command’s National Ground
Intelligence Center (NGIC); the Army Office of the Deputy Chief of Staff for
Intelligence, G-2; the Army Training and Doctrine Command Deputy Chief of Staff for
Intelligence, G-2; the Army Materiel Command Office of Deputy Chief of Staff for
Intelligence, G-2, including Army foreign intelligence officers; and the Marine Corps
Intelligence Activity. Appendix C provides the DOD guidance on STAs, and
Appendix D describes the roles and responsibilities of the key agencies.




                                           3

    Finding. Identifying and Updating the Threats
    to Tactical Wheeled Vehicles
    The Army and Marine Corps processes used to identify threats to tactical wheeled
    vehicles (TWVs) and communicate this information to program managers and the test
    communities were effective. As a result, program offices for the Army and Marine Corps
    TWVs from our selection that were deployed to Southwest Asia6 had reacted to updated
    STAs by incorporating armor in the vehicles’ design (see the seven TWVs in the table
    below). Specifically, the program offices had obtained updated threat assessments,
    modified their contracts to incorporate armor requirements in the vehicles’ design, and
    had their test community determine the suitability and effectiveness of the design changes
    made in response to the changing threats. Further, requirements organizations within the
    Army and the Marine Corps were in the process of updating TWV capability documents
    to reflect updated threat information identified in STAs and updating TWV required
    capabilities as needed.

               Vehicles Selected for Review That Were Deployed to Southwest Asia
              TWV                Type1       Acquisition2           Oversight                Current Phase
                                              Category
                                                       Army
     Armored Security               L            III        Program Executive Office for      Production
     Vehicle                                                Combat Support and Combat
                                                                  Service Support
     High Mobility                  L            III        Program Executive Office for      Production
     Multipurpose Wheeled                                   Combat Support and Combat
     Vehicle                                                      Service Support
     Family of Medium              M             IC         Program Executive Office for      Production
     Tactical Vehicles                                      Combat Support and Combat
                                                                  Service Support
     Heavy Equipment               H             III        Program Executive Office for     Operations &
     Transporter System                                     Combat Support and Combat          Support
                                                                  Service Support
     Heavy Expanded                H              III         Program Executive Office for    Production
     Mobility Tactical                                        Combat Support and Combat
     Truck                                                          Service Support
                                                    Marine Corps
     Medium Tactical               M              IC          Program Executive Office for    Production
     Vehicle Replacement                                             Land Systems
     Logistics Vehicle             H               II         Program Executive Office for    Production
     System Replacement                                              Land Systems
1
    L=light; M=medium; and H=heavy.
2
    See the glossary for definitions of the acquisition categories.


    6
        The Internally Transportable Vehicle was not deployed to Southwest Asia.


                                                         4

Preparation of System Threat Assessments
In accordance with Army Regulation 381-11, “Intelligence Support to Capability
Development,” January 26, 2007, the Army program office for the four selected light and
heavy TWVs was not required to have an STA because they were acquisition category
(ACAT) III programs. As required, the Army Training and Doctrine Command for
Intelligence, G-2, prepared informal threat assessments in response to the updated threats
to TWVs. In March 2005, the Army Training and Doctrine Command prepared an
informal threat assessment that focused on the current threat and the armoring of TWVs.
In November 2008, the Army Training and Doctrine Command updated the informal
March 2005 threat assessment to cover a broad range of threats that TWVs may face in
the next 10 to 15 years. The informal threat assessments identified the most likely threats
to TWVs as side-attack improvised explosive devices and small arms fire, and the most
stressing threats to TWVs as explosively formed projectiles and large underbody
improvised explosive devices. Other threats to TWVs include landmines; rocket-
propelled grenades; antitank guided missiles; mortars; artillery; and armed, unmanned
aerial vehicles. The Army Deputy Chief of Staff for Intelligence, G-2, and NGIC
coordinated on the informal threat assessments. The TACOM Life Cycle Management
Command Intelligence and Security Division prepared an STA, “System Threat
Assessment Report for the Tactical Wheeled Vehicles,” for the Army’s light, medium,
and heavy TWVs7 that was validated by the Army Deputy Chief of Staff for Intelligence,
G-2, in August 2009.

Because the Family of Medium Tactical Vehicles program was an ACAT IC program,
the program office obtained an STA as required by Army Regulation 381-11. The Army
Deputy Chief of Staff for Intelligence, G-2, validated the STA for the Family of Medium
Tactical Vehicles program in accordance with Army Regulation 381-11.

The Marine Corps prepared and validated tailored STAs for the three TWV programs
selected, as required by the Office of the Chief of Naval Operations Instruction 3811.1D,
“Threat Support to Weapon and Information Technology Systems Planning and
Acquisition,” June 5, 2008. For the two TWV programs with missions in Southwest Asia
(Medium Tactical Vehicle Replacement and Logistics Vehicle System Replacement), the
tailored STA stated that the primary and most prolific threats were small arms projectiles,
mortar and artillery fragments, and antipersonnel and antivehicle mine blasts.

Contract Modifications Issued in Response to Changing Threats
To procure armor upgrades to TWVs in response to the increased threats identified in the
STAs, Army and Marine Corps contracting officers issued separate armor contracts or
awarded contract modifications to the production contracts, with the exception of the
Internally Transportable Vehicle, which did not have increased armor requirements.
Army contracting officers amended the contracts to incorporate add-on-armor
requirements and procure initial quantities of armor kits as follows:


7
  The TWV STA does not include the Armored Security Vehicle because it is an ACAT III and is not
required by Army Regulation 381-11.


                                                  5

   •	 In July 2007, the contracting officer for the Armored Security Vehicle modified
      the contract to procure 506 add-on-armor kits. In February 2008 the contract was
      amended to include an additional 1,676 add-on-armor kits. Also, in March 2008
      and January 2009, the contracting officer continued to amend the contract to
      procure a total of 4,019 improved add-on-armor kits.

   •	 In April and June 2005, the contracting officer for the High Mobility
      Multipurpose Wheeled Vehicle amended the contract to procure
      1,233 add-on-armor kits. Additionally, in July 2006, the contracting officer
      amended the contract to procure an additional 3,800 enhanced add-on-armor kits.

   •	 In March 2004 and September 2005, the contracting officer for the Family of
      Medium Tactical Vehicles awarded contracts to Radian Inc. to provide
      1,822 bolt-on armor crew protection kits. Also, in July 2004, the contracting
      officer awarded a contract to Stewart and Stevenson Tactical Vehicle Systems LP
      to provide 2,060 low signature armored cabs. Additionally, in 2008, the
      contracting officer amended the production contract to procure 1,594 long-term
      armor strategy kits and cabs.

   •	 In April 2004, the contracting officer for the Heavy Equipment Transporter
      System contracted with Simula Inc. to procure 796 add-on-armor kits. In
      March 2008, the contracting officer amended the production contract with
      Oshkosh Truck Corporation to procure six prototype Heavy Equipment
      Transporter System vehicles with product improvements that, when complete,
      will accept the current and future add-on-armor kits.

   •	 In October 2008, the contracting officer for the Heavy Expanded Mobility
      Tactical Truck amended the contract to procure 661 add-on-armor kits. Also, in
      January 2009, the contracting officer amended the contract to procure another
      1,769 add-on-armor kits.

Marine Corps contracting officers amended contracts to incorporate add-on-armor
requirements and procured initial quantities of armor kits by performing the following
contractual actions.

   •	 In September 2004, the contracting officer incorporated engineering change
      proposals developed by the prime contractor, Oshkosh Corporation, in the
      Medium Tactical Vehicle Replacement contract to procure 398 add-on-armor kits
      to provide increased armor protection for greater crew survivability. Also, from
      February 2005 through November 2008, the contracting officer amended the
      contract to procure an additional 3,423 add-on-armor kits.

   •	 In May, 2006, the contracting officer for the Logistics Vehicle Replacement
      System began to exercise contract options and procured 351 add-on-armor kits.


                                            6

Tests of the Effectiveness of Armor Design Modifications
The Army Test and Evaluation Command was aware of current threats to TWVs based
on weekly threat updates received from the NGIC. Accordingly, the Army Test and
Evaluation Command incorporated the updated threat information in the test plans.
Using the weekly threat updates, the Army Test and Evaluation Command, in
coordination with the program offices, developed test plans and performed testing on the
suitability and effectiveness of the armor modifications made to the Army TWVs.
Below is a summary of the test results from the Army Test and Evaluation Command’s
capabilities and limitations reports, safety confirmation reports, and live fire test reports.

    •	 The September 2007 capabilities and limitations report for the Armored Security
       Vehicle stated that the add-on armor fragmentation kit enhanced the ballistic
       protection of the Armored Security Vehicle and provided some protection against
       improvised explosive devices. The earlier design of the Armored Security
       Vehicle protected against small arms fire and provided limited mine protection.

    •	 (FOUO) The early add-on armor fragmentation kits on armored variants of the
       High Mobility Multipurpose Wheeled Vehicle included protection against
                                                          The October 2006 safety
       confirmation for the High Mobility Multipurpose Wheeled Vehicle armored
       variants stated that the add-on armor fragmentation kit enhanced protection
       against                                                                     A
       safety confirmation was released in June 2007 for an interim armor kit that
       provided protection against
                      *


    •	 The December 2003 and October 2004 safety confirmations for the Family of
       Medium Tactical Vehicles stated that the Radian armor kit and the low signature
       armor cab kit, respectively, protected crew against small arms fire and blast
       fragmentation. Before December 2003, the design of the Family of Medium
       Tactical Vehicles did not provide armor for protection against small arms fire or
       blast fragmentation.

    •	 (FOUO) The June 2005 capabilities and limitations report for the Heavy
       Equipment Transporter System stated that the bolt-on armor improved protection
                                                                              *
       against

    •	 (FOUO) In the January 2008 live fire test and evaluation report, the Army Test
       and Evaluation Command discussed the extent to which crew can survive and
       function after the Heavy Expanded Mobility Tactical Truck, with improved
       armor, is attacked by a variety of ballistic threats. The upgraded armor improved
                                                                                      *
       protection against

The Marine Corps Operational Test and Evaluation Activity representatives attended
product team meetings with Marine Corps intelligence analysts to discuss threats to


*
 This paragraph omitted information exempt from disclosure under the Freedom of Information Act,
5 U.S.C. § 552(b)(2).

                                 FOR OFFICIAL USE ONLY
                                           7
TWVs before developing plans to test the suitability and effectiveness of armor
modifications to the Marine Corps TWVs. Further, Marine Corps intelligence analysts
reviewed and provided input to the test plans to ensure planned tests were reasonable.

    •	 The March 2008 draft Acquisition Strategy/Acquisition Plan for the Medium
       Tactical Vehicle Replacement program stated that, as armoring vehicle
       requirements became a critical issue during Operation Iraqi Freedom, the Marine
       Corps System Command pursued the development, testing, and production of
       armor kits geared toward crew protection. The testing results showed that the
       integrated armoring system developed for the Medium Tactical Vehicle
       Replacement program withstands small arms fire, improvised explosive devices,
       and mine blasts. The program office is currently fielding a blast protection
       upgrade kit to theater with plans to retrofit the upgrade to existing Medium
       Tactical Vehicle Replacement armor.

    •	 (FOUO) The September 2008 live fire test and evaluation report for the
       Logistics Vehicle Replacement System stated that the add-on armor provides
       protection against
                           *



Update of Vehicle Capability Documents
The Army Training and Doctrine Command stated that it plans to update the capabilities
documents for the Family of Medium Tactical Vehicles, the Heavy Equipment
Transporter System, and the Heavy Expanded Mobility Tactical Truck in response to the
updated STAs. TACOM Life Cycle Management Command foreign intelligence officers
completed the Light, Medium, and Heavy TWV STA, which the Army Training and
Doctrine Command will use as the baseline threat level in capability documents for all
Army TWVs selected except the High Mobility Multipurpose Wheeled Vehicle. The
High Mobility Multipurpose Wheeled Vehicle capability document will not be updated
because the program is being replaced with the Joint Light Tactical Vehicle. The
Armored Security Vehicle capability document was updated in February 2007 with
updated threat information from the Army Training and Doctrine Command and the
Defense Intelligence Agency.

The Marine Corps Combat Development Command has updated its capabilities document
by adding an annex for armoring the Medium Tactical Vehicle Replacement program.
The Command plans to update the Logistics Vehicle System Replacement capability
documents using the program’s tailored STA.




*
 This paragraph omitted information exempt from disclosure under the Freedom of Information Act,
5 U.S.C. § 552(b)(2).

                                 FOR OFFICIAL USE ONLY
                                           8
Summary
(FOUO) The Army and Marine Corps processes for identifying and communicating
updated threat information on TWVs to program managers, contracting officers, test
organizations, and requirements generators were effective. The Army and Marine Corps
prepared STAs for TWVs, identifying the most likely and stressing threats to TWVs. As
discussed, program managers, in response to updated threat information, had contracting
officers amend TWV contracts to incorporate armor design changes needed to provide
the TWVs additional protection from
                    Also Army and Marine Corps test organizations tested the
effectiveness of the armor design changes made to the TWVs as the threats continued to
evolve. Although not accomplished yet, the requirements communities within the Army
and the Marine Corps planned to update their TWV capabilities documents with updated
threat assessment information and revised armor protection requirements in response to
the updated threats. *




*
 This paragraph omitted information exempt from disclosure under the Freedom of Information Act,
5 U.S.C. § 552(b)(2).

                                 FOR OFFICIAL USE ONLY
                                           9
Appendix A. Scope and Methodology
We conducted this performance audit from October 2008 through September 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives. We judgmentally selected for review Army
and Marine Corps TWVs that were in production and fielded for use in Southwest Asia.
We selected eight TWVs for review:

   •   Armored Security Vehicle,
   •   High Mobility Multipurpose Wheeled Vehicle,
   •   Family of Medium Tactical Vehicles,
   •   Heavy Equipment Transporter System,
   •   Heavy Expanded Mobility Tactical Truck,
   •   Internally Transportable Vehicle,
   •   Medium Tactical Vehicle Replacement, and
   •   Logistics Vehicle System Replacement.

We excluded TWVs in the development phase of the acquisition process from our review
because system program offices must obtain an updated system threat assessment before
low-rate initial production decisions and full-rate production reviews to ensure that
systems produced and fielded satisfy warfighter capability requirements.

For selected TWVs, we determined whether the Army and Marine Corps updated system
capability documents, contract statements of work, and test plans in response to the
threats identified in current STAs. We reviewed STAs, and contracting, testing, and
capabilities documents dated from August 1982 through August 2009. We interviewed
staff from the Army Intelligence and Security Command’s NGIC; the Army Office of the
Deputy Chief of Staff for Intelligence, G-2; the Army Training and Doctrine Command
Deputy Chief of Staff for Intelligence, G-2; the Army Materiel Command Office of the
Deputy Chief of Staff for Intelligence, G-2, including the Army foreign intelligence
officers; the Army Test and Evaluation Command; the Marine Corps Combat
Development Command; the Marine Corps System Command; and the Marine Corps
Intelligence Activity.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DOD IG), and the Army Audit Agency have issued three
reports discussing the installation of Army truck armor, planning armor requirements,


                                           10

and foreign intelligence support to acquisition. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DOD IG reports can be
accessed over the Internet at http://www.dodig.mil/audit/reports. Army Audit Agency
reports are not publicly available on the Internet.

GAO
GAO Report No. GAO-06-160, “Defense Logistics: Several Factors Limited the
Production and Installation of Army Truck Armor during Current Wartime Operations,”
March 2006

DOD IG
DOD IG Report No. D-2008-089, “Planning Armor Requirements for the Family of
Medium Tactical Vehicles,” May 9, 2008

Army
Army Audit Agency Report No. A-2006-0232-ALA, “Followup Audit of G-2 Foreign
Intelligence Support to Acquisition,” September 22, 2006




                                          11

Appendix B. Description of the Selected
Army and Marine Corps Tactical Wheeled
Vehicles
Armored Security Vehicle (Army)
The Armored Security Vehicle is a light TWV, ACAT III program under the oversight of
the Program Executive Office for Combat Support and Combat Service Support. The
Army Acquisition Executive is the milestone decision authority. The Armored Security
Vehicle program is in the production phase of the acquisition process. The Armored
Security Vehicle supports forces operating in complex and uncertain security
environments that have both conventional and asymmetric threats. It allows teams to
detect and engage targets more effectively while operating under armor. The Armored
Security Vehicle is in use in Southwest Asia.

High Mobility Multipurpose Wheeled Vehicle (Army)
The High Mobility Multipurpose Wheeled Vehicle is a light TWV, ACAT III program
under the oversight of the Program Executive Office for Combat Support and Combat
Service Support. The Program Executive Officer is the milestone decision authority.
The High Mobility Multipurpose Wheeled Vehicle program has been in the production
phase of the acquisition process since its full-rate production review in September 1985.
The High Mobility Multipurpose Wheeled Vehicle is used for many missions that include
command and control, troop transport, light cargo transport, shelter carrier, ambulance,
weapons transport, and weapons platform throughout all areas of the battlefield or
mission area. The High Mobility Multipurpose Wheeled Vehicle is in use in Southwest
Asia.

Family of Medium Tactical Vehicles (Army)
The Family of Medium Tactical Vehicles is a medium TWV, ACAT IC program under
the oversight of the Program Executive Office for Combat Support and Combat Service
Support. The Army Acquisition Executive is the milestone decision authority. The
Family of Medium Tactical Vehicles program has been in the production phase of the
acquisition process since its full-rate production review in August 1995. The Family of
Medium Tactical Vehicles provides unit mobility and resupply, as well as equipment and
personnel transportation. Further, it serves as a weapon systems platform for combat,
combat support, and combat service support units in a tactical environment. The Family
of Medium Tactical Vehicles program is currently in use in Southwest Asia.

Heavy Equipment Transporter System (Army)
The Heavy Equipment Transporter System is a heavy TWV, ACAT III program under
the oversight of the Program Executive Office for Combat Support and Combat Service
Support. The Program Executive Officer is the milestone decision authority. The Heavy
Equipment Transporter System is in the operations and support phase of the acquisition
process. The Heavy Equipment Transporter System is used to provide line haul, local


                                           12

haul, and maintenance evacuation of the M1 series tank and heavy tracked and wheeled
equipment during tactical operations on and off road. The Heavy Equipment Transporter
System program is currently in use in Southwest Asia.

Heavy Expanded Mobility Tactical Truck (Army)
The Heavy Expanded Mobility Tactical Truck is a heavy TWV, ACAT III program under
the oversight of the Program Executive Office for Combat Support and Combat Service
Support. The Program Executive Officer is the milestone decision authority. The Heavy
Expanded Mobility Tactical Truck is in the production phase of the acquisition process.
The Heavy Expanded Mobility Tactical Truck supports combat units by performing line
and local haul, unit resupply, helicopter and tactical refueling, and related missions in the
tactical environment. The Heavy Expanded Mobility Tactical Truck is currently in use in
Southwest Asia.

Internally Transportable Vehicle (Marine Corps)
The Internally Transportable Vehicle is a light TWV, ACAT III program under the
oversight of the Product Group Director for Armor and Fire Support Systems. The
Commanding General, Marine Corps Systems Command, is the milestone decision
authority. The Internally Transportable Vehicle is in the production phase of the
acquisition process. The Internally Transportable Vehicle provides ground mobility in
support of an operational maneuver from the sea and can be transported on the MV-22
Osprey. The Internally Transportable Vehicle is currently not being used in Southwest
Asia.

Medium Tactical Vehicle Replacement (Marine Corps)
The Medium Tactical Vehicle Replacement is a medium TWV, ACAT IC program under
the oversight of the Program Executive Office for Land Systems. It is in the production
phase of the acquisition process. In February 2008, the Navy Acquisition Executive was
designated the milestone decision authority for the Medium Tactical Vehicle
Replacement program after the ACAT level was reclassified from an ACAT II to an
ACAT IC program based on an increase in procurement funding driven by new wartime
requirements. The Medium Tactical Vehicle Replacement delivers supplies to forward
deployed units; transports personnel, ammunition, break-bulk cargo, bulk liquids,
engineering equipment; and tows weapons systems. Further, it must be able to accept
and move air defense, communication, command and control shelters, and commercial
cargo containers. The Medium Tactical Vehicle Replacement is in use in Southwest Asia.

Logistics Vehicle System Replacement (Marine Corps)
The Logistics Vehicle System Replacement is a heavy TWV, ACAT II program under
the oversight of the Program Executive Office for Land Systems and is in the production
phase of the acquisition process. The Assistant Secretary of the Navy (Research,
Development, and Acquisition) is the milestone decision authority. The Logistics
Vehicle System Replacement replaces the Logistics Vehicle System, and its primary
mission is to provide bulk transport within all elements of the Marine Air-Ground Task
Force. The bulk transport includes bulk fuel and water, ammunition, break-bulk cargo,



                                             13

tactical bridging standardized containers to 20 feet, heavy equipment transport, and heavy
wrecker recovery. The Logistics Vehicle System Replacement is in use in Afghanistan.




                                           14

Appendix C. Guidance on Developing and
Communicating Threat Information
Defense Intelligence Agency Instruction 5000.002, “Intelligence Threat Support for
Major Defense Acquisition Programs,” June 2006; Army Regulation 381-11,
“Intelligence Support to Capability Development,” January 26, 2007; and the Office of
the Chief of Naval Operations Instruction 3811.1D, “Threat Support to Weapon and
Information Technology Systems Planning and Acquisition,” June 5, 2008, provide
criteria for developing threat assessments and communicating updated threat information
for use throughout the acquisition process for TWVs.

Defense Intelligence Agency Instruction
Defense Intelligence Agency Instruction 5000.002 states that the Agency is responsible
for validating STAs1 for ACAT ID, major defense acquisition programs (definitions of all
ACAT levels are in the glossary). In addition, the Instruction tasks NGIC with preparing
and updating the Land Warfare Capstone Threat Assessment, which provides intelligence
information for systems that operate on land, including TWVs. Capstone threat
assessments are comprehensive, authoritative, and validated assessments of foreign
threats in major warfare areas. Capstone threat assessments are the primary source of
threat intelligence information for preparing and updating STAs and threat portions of
documents that the Joint Chiefs of Staff review as part of the Joint Capabilities
Integration and Development System process.2 Upon publication, capstone threat
assessments are considered validated threat assessments for use in the Defense
acquisition system process.

Army Regulation
Army Regulation 381–11 provides policies, responsibilities, and procedures for
requesting threat assessments and to ensure that threat considerations are incorporated in
the Defense system acquisition process and the Joint Capabilities Integration and
Development System for efforts on which the Army is the lead or supporting agency.
The Army’s Office of the Deputy Chief of Staff for Intelligence, G-2, validates STAs for
ACAT IC and II programs and programs on the Office of the Secretary of Defense Test
and Evaluation Oversight list.3 If an STA is required for an ACAT III program, the
Army relies on the appropriate capstone threat assessment, which for TWVs is the Land


1
 Defense Intelligence Agency Instruction 5000.002 states that many agencies use the terms system threat
assessment and system threat assessment report; however, the terms are equivalent. For consistency, this
report uses the term system threat assessment.
2
 The documents included in the Joint Capabilities Integration and Development System process include
Joint Capabilities Document, Initial Capabilities Document, Capability Development Document, and
Capability Production Document.
3
 The Office of the Secretary of Defense Test and Evaluation Oversight list specifies developmental,
operational, and live fire test and evaluation oversight requirements for each program.




                                                    15

Warfare Capstone Threat Assessment. The threat validation authority for ACAT III
programs is the U.S. Army Training and Doctrine Command at program initiation and the
U.S. Army Materiel Command at subsequent acquisition milestone decisions.

Chief of Naval Operations Instruction
Chief of Naval Operations Instruction 3811.1D requires that the Marine Corps
Intelligence Activity prepare tailored STAs for ACAT I, II, III, and IV programs. It also
requires the Marine Corps Intelligence Activity to review threat information in Joint
Capability and Integration Development System documents for compliance with DOD
and the Chairman of the Joint Chiefs of Staff requirements and to review and approve
threat-related sections of the system test and evaluation master plans.




                                           16

Appendix D. Agency Roles and
Responsibilities
The Army Intelligence and Security Command’s NGIC; the Army Office of the Deputy
Chief of Staff for Intelligence, G-2; the Army Training and Doctrine Command Deputy
Chief of Staff for Intelligence, G-2; the Army Materiel Command Office of Deputy Chief
of Staff for Intelligence, G-2; Army foreign intelligence officers; and the Marine Corps
Intelligence Activity are the key organizations for preparing the Land Warfare Capstone
Threat Assessment and for collecting and relaying threat information to program offices
and requirements generators.

National Ground Intelligence Center
The Army Intelligence and Security Command’s NGIC is responsible for managing
collections, analysis, and production of threat documentation. NGIC provides support to
intelligence activities in developing and updating STAs by participating in threat steering
group meetings† and providing comments on programs’ STAs. NGIC is responsible for
threat analysis and threat assessment production for all land systems, as delegated by the
Defense Intelligence Agency. NGIC ground intelligence data can be accessed on its
secure Web site by members of the DOD intelligence, acquisition, and test communities
with access.

(FOUO)




                               *


(FOUO)




                           *


(FOUO)



           *



†
 The threat steering group coordinates the production, review, and validation of threat assessments.
*
 This paragraph omitted information exempt from disclosure under the Freedom of Information Act,
5 U.S.C. § 552(b)(2).

                                   FOR OFFICIAL USE ONLY
                                             17
Army Deputy Chief of Staff for Intelligence, G-2
The Army Deputy Chief of Staff for Intelligence, G-2, manages the Army’s intelligence
support through the capability development process and ensures intelligence data are
logical and consistent by assigning threat integration staff officers and threat analysts to
support the capabilities development process. The threat integration staff officers and
threat analysts schedule threat steering group meetings for each program and coordinate
reviews of threat assessments in Joint Capability Integration and Development System
documents supporting Army programs and analysis.

Army Training and Doctrine Command Deputy Chief of Staff for
Intelligence, G-2
The Army Training and Doctrine Command Deputy Chief of Staff for Intelligence, G-2,
develops the initial STAs for all ACAT I and II programs before the engineering and
manufacturing development milestone decision. The Deputy Chief of Staff also prepares
and validates the initial STA for ACAT III programs, if required by the threat steering
group, before the engineering and manufacturing development decision.

Army Materiel Command
The Army Materiel Command Deputy Chief of Staff for Intelligence, G-2, researches,
analyzes, and provides information on current and future threat capabilities by providing
threat statements and guidance in acquisition documents. Further, the Deputy Chief of
Staff for Intelligence, G-2:

   •	 updates STAs for all ACAT I and II programs after the engineering and 

      manufacturing development phase of the acquisition process, 

   •	 prepares and validates STAs required for ACAT III programs by direction of the
      threat steering group, and
   •	 assigns foreign intelligence officers at appropriate Army command locations.

Army Foreign Intelligence Officers
Army foreign intelligence officers are the primary source of threat assessment support to
Army program offices. Foreign intelligence officers research, analyze, and provide
intelligence information to program managers. Additionally, with direction from the
threat steering group, foreign intelligence officers prepare and update STAs for all
acquisition programs that have passed the engineering and manufacturing development
milestone decision of the acquisition phase. The Army Materiel Command Deputy Chief
of Staff for Intelligence, G-2, validates the STAs.

TACOM Life Cycle Management Command Foreign Intelligence
Officers
TACOM Life Cycle Management Command foreign intelligence officers prepare
sections of the STAs and provide acquisition decisionmakers with information from
NGIC and other intelligence sources on threats about their vehicles. The TACOM Life
Cycle Management Command foreign intelligence officers meet weekly with program


                                             18

and product managers to address threats to vehicles and address specific concerns about
threats to vehicles which may make the vehicles fail warfighter requirements.
Specifically, the foreign intelligence officers stated that they provide trends and related
information on platforms and casualties, based on NGIC weekly threat briefings
                                    Although formal meeting minutes are not written by the
foreign intelligence officers or the program office representatives, the program and
product managers confirmed that they are kept informed about the threats to their TWVs
through meetings and communications with TACOM Life Cycle Management Command
foreign intelligence officers. *

Marine Corps Intelligence Activity
Analysts at the Marine Corps Intelligence Activity produce tailored STAs for all Marine
Corps programs. The Marine Corps Intelligence Activity has working groups that are
responsible for collecting information on current threats. The analysts obtain threat
information by accessing databases available to members of the intelligence community,
such as NGIC personnel, to ensure the latest threat information is captured and also by
analyzing future threats.

Marine Corps Intelligence Activity analysts prepare and validate tailored STAs for every
Marine Corps program on which the Marine Corps is the lead agency and the
Commanding General, Marine Corps System Command, is the milestone decision
authority. In addition, Marine Corps Intelligence Activity analysts provide briefings and
presentations on the current threats to TWVs at integrated product team meetings with
the Program Manager, personnel from the Marine Corps Combat Development
Command, and representatives of the Marine Corps Operational Test and Evaluation
Activity. Further, the Marine Corps Intelligence Activity operates a database, the
Operation Task Management System. Marine Corps Intelligence Activity analysts stated
that they use the database to track formal requests from Program Managers for additional
threat briefs on their TWV programs.




*
 This paragraph omitted information exempt from disclosure under the Freedom of Information Act,
5 U.S.C. § 552(b)(2).



                                                 19

Glossary
Acquisition Category. An ACAT facilitates decentralized decisionmaking, decision
execution, and compliance with statutory requirements for milestone decisions in the
Defense acquisition system process. The categories determine the level of review,
decision authority, and applicable procedures. The following are definitions for ACAT I,
II and III.

           Acquisition Category I. An ACAT I program is defined as a major Defense
acquisition program estimated by the Under Secretary of Defense for Acquisition,
Technology, and Logistics to require an eventual expenditure of research, development,
test, and evaluation funds of more than $365 million in FY 2000 constant dollars, or of
procurement funds of more than $2.19 billion in FY 2000 constant dollars, or designated
by the Under Secretary of Defense for Acquisition, Technology, and Logistics to be an
ACAT I program. ACAT I programs have two subcategories: ACAT ID and ACAT IC.
The Under Secretary of Defense for Acquisition, Technology, and Logistics designates
programs as ACAT ID or IC.

                   Acquisition Category ID. For this category, the Under Secretary of
Defense for Acquisition, Technology, and Logistics is the milestone decision authority.
The “D” refers to the Defense Acquisition Board, which advises the Under Secretary of
Defense for Acquisition, Technology, and Logistics at major decision points.

                   Acquisition Category IC. For this category, the DOD Component
Head or, if delegated, the DOD Component Acquisition Executive is the milestone
decision authority. The “C” refers to Component.

          Acquisition Category II. An ACAT II program is an acquisition program that
does not meet the criteria for an ACAT I program, but does meet the criteria for a major
system. A major system is defined as a program estimated by the DOD Component Head
to require an eventual expenditure of research, development, test, and evaluation funds of
more than $140 million in FY 2000 constant dollars or of procurement funds of more
than $660 million in FY 2000 constant dollars, or designated by the DOD Component
Head to be an ACAT II program.

          Acquisition Category III. An ACAT III program is an acquisition program
that does not meet the criteria for ACAT I and II programs. The milestone decision
authority is designated by the DOD Component Acquisition Executive to an official at
the lowest appropriate level.

Capabilities and Limitations Report. The Capabilities and Limitations report issued by
the Army Test and Evaluation Command provides critical information to the
decisionmakers and commanders receiving a TWV system. Each report addresses the
capabilities, limitations, safety, training, supportability, survivability, and unknowns or



                                            20

risk areas. Further, the Capabilities and Limitations report is written in terms warfighters
can easily understand.

Safety Confirmation. A safety confirmation is a document issued by the Developmental
Test Command, which is a subordinate command under the Army Test and Evaluation
Command. It provides the materiel developer and the decisionmaker with the test
agency’s safety findings and conclusions, and states whether the specified safety
requirements have been met.




                                             21

